No.
|
IN THE SUPREME COURT OF THE UNITED STATES

ELISEO CARRILLO, ITI
Petitioner

Vv.
UNITED STATES OF AMERICA,

Respondent

eS
PROOF OF SERVICE

State of Texas )
County of Midland )

DEPOSITOR, being first duly sworn, deposes and says under oath:

That on September 01, 2021, the Motion for Leave to Proceed In Forma Pauperis, inthe
above-entitled case, was deposited in a United States Post Office mail box located in Midland,
Midland County, Texas, with first class postage prepaid, properly addressed to the Clerk of the
Supreme Court of the United States and within the time allowed for filing said Petition for Writ
of Certiorari;

That an additional copy of the Petition and Motion to Proceed In Forma Pauperis were served
on Counsel for Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530

Dated at Midland, Midland County, Texas, thj

 
  
 

Subscribed and Sworn to before me /
this <]“day of September, 2021. | Orney

 
 
  

  

a's Joanna Mandonado
. “O My Commission Expires
-@ 05/18/2024

\
ee iD No. 126275751 a

    
Respectfully submitted,

Steve Hershberger, Attorney at Law
600 No. Marienfeld St., Ste. 1035
Midland, TX 79701

432-570-4014

Attorney for Petitioner
